Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  ZONE PROGRAM INTEGRITY
 CONTRACTORS’ DATA ISSUES
HINDER EFFECTIVE OVERSIGHT




                    Daniel R. Levinson
                     Inspector General

                     November 2011
                     OEI-03-09-00520
   E X E C U T I V E                                     S U M M A R Y


                  OBJECTIVES
                  1.          To perform an early assessment of the Centers for Medicare &
                              Medicaid Services’ (CMS) oversight of the Zone Program Integrity
                              Contractors (ZPIC).
                  2.          To describe the extent to which ZPICs performed program
                              integrity activities, including investigations, case referrals,
                              responses to requests for information, and administrative actions.
                  3.          To determine the extent to which CMS used program integrity
                              workload statistics in ZPIC performance evaluations.
                  4.          To describe any barriers encountered by ZPICs in performing their
                              Medicare program integrity activities.


                  BACKGROUND
                  This study is part of the Office of Inspector General’s (OIG) body of work
                  examining the identification and investigation of fraud, waste, and
                  abuse by Medicare program integrity contractors. OIG has identified
                  oversight of CMS program and benefit integrity contractors as a top
                  management challenge for the Department of Health and Human
                  Services. Previous OIG studies found vulnerabilities in these
                  contractors’ efforts to combat fraud and abuse. This is the first study
                  examining ZPICs’ program integrity activities.
                  CMS is replacing Program Safeguard Contractors (PSC) with ZPICs,
                  which will perform Parts A and B program integrity work in seven
                  newly established geographical zones. CMS awarded the first two ZPIC
                  contracts for Zones 4 and 7 on September 30, 2008, and both ZPICs
                  were operational as of February 1, 2009. As of September 2011, CMS
                  had awarded the remaining five ZPIC contracts and five of the seven
                  ZPICs were operational.
                  ZPICs are required to report monthly workload statistics related to
                  their program integrity activities, including investigations, case
                  referrals, requests for information, and administrative actions. CMS
                  tracks and analyzes these statistics using an online system called the
                  CMS Analysis, Reporting, and Tracking System (CMS ARTS).
                  Our study was limited to the ZPICs in Zones 4 and 7 because they were
                  the only ZPICs that had completed a full contract year at the time of our
                  review. Our study reviewed ZPICs’ activities for the period
                  February 1 through October 31, 2009. We collected and reviewed

OEI-03-09-00520   Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   i
E   X   E C     U T   I     V      E            S      U M            M       A      R Y


                          ZPICs’ workload data in CMS ARTS and contacted CMS staff to help
                          resolve discrepancies in the workload data. Additionally, we reviewed
                          ZPICs’ performance evaluations and surveyed the ZPICs to identify any
                          barriers they encountered in performing their program integrity
                          activities.


                          FINDINGS
                          Workload data used by CMS to oversee ZPICs were not accurate or
                          uniform. There were inaccuracies and a lack of uniformity in ZPIC data
                          as a result of system issues in CMS ARTS, ZPIC reporting errors,
                          ZPICs’ interpretations of workload definitions, and inconsistencies in
                          requests for information reports.
                          A visual review of ZPICs’ workload data revealed a CMS ARTS system
                          error that resulted in incorrect data relating to ZPICs’ investigations
                          and cases. Additionally, we found that ZPICs’ interpretations of
                          workload definitions led to a lack of uniformity in workload data.
                          Specifically, the ZPICs counted and reported their new investigations
                          differently in their workload statistics in CMS ARTS. This lack of
                          uniformity could be the reason that one ZPIC reported seven times more
                          investigations originating from external sources (e.g., complaints) than
                          the other. In addition, there were differences in the ways ZPICs were
                          reporting on ZPIC-initiated work, and one ZPIC found the definitions
                          regarding overpayments unclear.
                          The inaccuracy and nonuniformity of ZPICs’ data prevented a
                          conclusive assessment of ZPICs’ program integrity activities. One
                          of our objectives was to describe the extent of ZPICs’ program integrity
                          activities during their first year of operation. However, the inaccuracies
                          and lack of uniformity in the ZPICs’ data prevented us from making a
                          conclusive assessment of their activities.
                          The lack of uniformity in ZPICs’ reporting of data is similar to issues we
                          identified more than 10 years ago in a review of Medicare Part A fraud
                          units. That review found that definitions of key terms varied in
                          meaning among CMS and its contractors, which hindered CMS’s ability
                          to interpret data and measure fraud unit performance. In addition,
                          despite CMS’s statement that its new contracting strategy of realigning
                          contractor jurisdictions to include both Medicare Parts A and B would
                          make it easier for CMS to compare contractors, the lack of uniformity
                          identified in ZPICs’ reporting could prevent CMS from both accurately



    OEI-03-09-00520       Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   ii
E   X   E C     U T   I     V      E            S      U M            M       A      R Y


                          measuring an individual ZPIC’s performance and comparing workload
                          statistics across ZPICs.
                          CMS’s performance evaluations of ZPICs contained few workload
                          statistics. Neither ZPIC evaluation contained the amount of
                          overpayments referred or the number of investigations or cases initiated
                          as a result of proactive methods. The performance evaluations provided
                          limited information on requests for information. Also, while one ZPIC’s
                          evaluation included the number of investigations the ZPIC initiated, the
                          other did not. This lack of quantitative workload data is similar to the
                          results of our past work on PSC performance evaluations, which found
                          that the evaluation reports provided limited quantitative data about
                          PSCs’ achievements.
                          Although the ZPIC Statement of Work does not specify that workload
                          statistics should be included in CMS’s performance evaluations of the
                          ZPICs, it does state that CMS uses CMS ARTS data to track and
                          analyze ZPIC workload, performance, and production. Therefore,
                          including workload statistics in ZPICs’ performance evaluations would
                          help ensure that CMS performs a thorough assessment of ZPICs’
                          performance.
                          Data access issues affected ZPICs’ ability to perform program
                          integrity activities. ZPICs reported that data access issues affected their
                          ability to identify potential fraud and abuse, respond to requests for
                          information, and track overpayment collections. At the start of their
                          contracts, ZPICs had difficulties obtaining data. One ZPIC described
                          difficulties obtaining claims data from a previous PSC and, therefore,
                          decided to purchase the claims data on its own from another CMS
                          contractor. The other ZPIC stated that the data necessary to fulfill
                          requests for information were not available or had to be generated from
                          multiple sources.
                          Both ZPICs reported that improved data access would assist them in
                          identifying potential fraud and abuse. ZPICs reported that having access
                          to daily downloads of claims data would enable them to perform
                          near-real-time analysis of a provider’s or a supplier’s billing activity.
                          Both ZPICs identified issues with tracking overpayment collections
                          relating to home health and durable medical equipment. They explained
                          that the format of overpayment reports received from Medicare
                          administrative contractors (MAC) makes it difficult to identify the
                          overpayments related to their jurisdictions.



    OEI-03-09-00520       Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   iii
E   X   E C     U T   I     V      E            S      U M            M       A      R Y



                          RECOMMENDATIONS
                          OIG has a long history of reviewing Medicare’s program integrity
                          contractors and their ability to detect and deter fraud, waste, and abuse.
                          This review covered the first two ZPICs’ first year of operation.
                          Conducting an initial assessment of the two ZPICs’ activities provides
                          CMS with important information that would be helpful in its oversight
                          of all ZPICs’ performance. The inaccuracies and lack of uniformity we
                          identified in ZPICs’ data prevented us from making a conclusive
                          assessment of their program integrity activities; however, the issues we
                          identified present a serious obstacle to CMS in effectively overseeing
                          ZPIC operations. It is important that these issues be corrected so that
                          CMS can analyze ZPICs’ effectiveness in detecting and deterring fraud,
                          waste, and abuse. It is also important that these issues be corrected so
                          that CMS can determine how well ZPICs are performing compared to
                          other ZPICs and PSCs. Therefore, we recommend that CMS:
                          Clarify the workload definitions in CMS ARTS to ensure that ZPICs’
                          workload statistics are accurate and that ZPICs report their data
                          uniformly. CMS should clarify the definitions of the workload statistic
                          fields in CMS ARTS and discuss the definitions with the ZPICs to ensure
                          uniformity of reporting across ZPICs.
                          Improve oversight of ZPICs by performing a timely review of data in
                          CMS ARTS for each ZPIC and across ZPICs to detect any anomalies
                          in workload reporting. This would enable CMS to identify any issues
                          that need to be further addressed and identify ZPICs that may need
                          further oversight.
                          Utilize and report ZPIC workload statistics in ZPIC evaluations. CMS
                          requires ZPICs to report workload statistics in CMS ARTS that could be
                          valuable to CMS in its oversight and evaluation of ZPICs. Once CMS has
                          ensured that ZPICs’ workload statistics are being accurately and
                          uniformly reported, CMS should utilize and report these statistics in
                          ZPICs’ performance evaluations.
                          Ensure that ZPICs have access to all data necessary to effectively
                          carry out their program integrity activities. CMS should ensure that
                          ZPICs have all data necessary to improve their identification of potential
                          fraud and abuse, respond to requests for information, and track
                          overpayment collections. For example, CMS should ensure that ZPICs
                          have access to the necessary claims data at the start of their contracts,
                          have access to near-real-time data, and receive MAC overpayment
                          reports that are separated by ZPIC jurisdiction.

    OEI-03-09-00520       Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   iv
E   X   E C     U T   I     V      E           S      U M            M       A      R Y



                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS believes it has already complied with our first recommendation.
                          CMS stated that there were some early misunderstandings, which have
                          since been clarified, and believes the workload definitions are now
                          written clearly.
                          CMS concurred with the first part of our second recommendation, to
                          perform a timely review of data in CMS ARTS for each ZPIC. It did not
                          concur with the second part, to perform a timely review of data across
                          ZPICs. CMS stated that anomalies cannot be detected across ZPICs
                          because of the differences in fraud landscapes between the ZPICs. We
                          disagree and note that we detected anomalies in reporting across ZPICs,
                          including differences in the way the ZPICs were reporting their
                          numbers of new investigations.
                          CMS partially concurred with our third recommendation and stated it
                          will consider including workload statistics for future evaluations, if
                          appropriate. CMS stated it would welcome the opportunity to meet
                          with OIG to discuss any workload statistics OIG believes would relate
                          directly to ZPICs’ performance.
                          CMS concurred with our fourth recommendation and stated that the
                          currently awarded ZPIC Statements of Work require ZPICs to have
                          access to daily downloads of shared system claims data. Additionally,
                          CMS stated that it believes an effective workaround was developed for
                          every data access problem identified in our study.




    OEI-03-09-00520       Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   v
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                    Workload data used by CMS to oversee ZPICs were not accurate
                    or uniform . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                    The inaccuracy and nonuniformity of ZPICs’ data prevented a
                    conclusive assessment of ZPICs’ program integrity activities . . . . 14

                    CMS’s performance evaluations of ZPICs contained few
                    workload statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                    Data access issues affected ZPICs’ ability to perform program
                    integrity activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                    Agency Comments and Office of Inspector General Response. . . . 19



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                    A: Definitions for Selected Workload Data Fields in the Centers
                       for Medicare & Medicaid Services’ Analysis, Reporting, and
                       Tracking System. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                    B: Zone Program Integrity Contractors’ Program Integrity
                       Activities and Workload Data . . . . . . . . . . . . . . . . . . . . . . . . . . 24

                    C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
   I N T R O D U C T I O N


                  OBJECTIVES
                  1.          To perform an early assessment of the Centers for Medicare &
                              Medicaid Services’ (CMS) oversight of the Zone Program Integrity
                              Contractors (ZPIC).
                  2.          To describe the extent to which ZPICs performed program
                              integrity activities, including investigations, case referrals,
                              responses to requests for information, and administrative actions.
                  3.          To determine the extent to which CMS used program integrity
                              workload statistics in ZPIC performance evaluations.
                  4.          To describe any barriers encountered by ZPICs in performing their
                              Medicare program integrity activities.


                  BACKGROUND
                  This study is part of the Office of Inspector General’s (OIG) body of work
                  examining the identification and investigation of fraud, waste, and
                  abuse by Medicare program integrity contractors. OIG has identified
                  oversight of CMS program and benefit integrity contractors as a top
                  management challenge for the Department of Health and Human
                  Services. Previous OIG studies found vulnerabilities in these
                  contractors’ efforts to combat fraud and abuse. This is the first study
                  examining ZPICs’ program integrity activities; it focuses on the two
                  ZPICs that completed a full contract year in 2009.
                  Recently, there has been congressional interest in the work of the
                  ZPICs. The Senate Committee on Finance sent a letter to CMS on
                  October 15, 2010, regarding the performance both of the Program
                  Safeguard Contactors (PSC) and ZPICs.1 The letter raised concerns
                  about the effectiveness of PSC and ZPIC efforts to combat fraud and
                  abuse in the Medicare program.
                  Transition From PSCs to ZPICs
                  The Medicare Prescription Drug, Improvement and Modernization Act
                  of 2003 required CMS to implement Medicare contracting reform. As a
                  result of contracting reform, CMS is replacing PSCs with ZPICs, which
                  will perform program integrity work for Medicare Parts A and B in
                  seven newly established geographical zones:

                    1 Accessed at http://grassley.senate.gov/about/upload/2010-10-15-Letter-to-CMS.pdf

                  on October 21, 2010.



OEI-03-09-00520   Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   1
I   N T    R O        D   U      C T           I     O      N


                                          •           Zone 1: American Samoa, California, Guam, Hawaii, the
                                                      Mariana Islands, and Nevada.
                                          •           Zone 2: Alaska, Arizona, Idaho, Iowa, Kansas, Missouri,
                                                      Montana, Nebraska, North Dakota, Oregon, South Dakota,
                                                      Utah, Washington, and Wyoming.
                                          •           Zone 3: Illinois, Indiana, Kentucky, Michigan, Minnesota,
                                                      Ohio, and Wisconsin.
                                          •           Zone 4: Colorado, New Mexico, Oklahoma, and Texas.
                                          •           Zone 5: Alabama, Arkansas, Georgia, Louisiana,
                                                      Mississippi, North Carolina, South Carolina, Tennessee,
                                                      Virginia, and West Virginia.
                                          •           Zone 6: Connecticut, Delaware, Maine, Maryland,
                                                      Massachusetts, New Hampshire, New Jersey, New York,
                                                      Pennsylvania, Rhode Island, Vermont, and
                                                      Washington, D.C.
                                          •           Zone 7: Florida, Puerto Rico, and the Virgin Islands.
                              CMS awarded the first two ZPIC contracts, for Zones 4 and 7, on
                              September 30, 2008, and both ZPICs were fully operational as of
                              February 1, 2009. Health Integrity, LLC, was awarded the Zone 4
                              contract and SafeGuard Services, LLC, was awarded the Zone 7
                              contract.
                              As of September 2011, CMS had awarded the remaining five ZPIC
                              contracts. Zone 1 was awarded in September 2010 and was fully
                              operational in December 2010. Zone 2 was awarded in September 2009,
                              but the award was protested. The protest was resolved in October 2010,
                              and Zone 2 was fully operational in February 2011. Zone 3 was
                              awarded in April 2011; however, a postaward protest has delayed the
                              transition. Zone 5 was awarded in February 2009, but the award was
                              protested and a stay of performance was required. CMS provided
                              justification to override the stay, and the ZPIC was fully operational in
                              December 2009. The last ZPIC contract for Zone 6 was awarded on
                              September 30, 2011.
                              Program Integrity Activities of the ZPICs
                              According to the ZPIC Statement of Work, ZPICs’ activities to identify,
                              prevent, or correct potential fraud, waste, and abuse may include, but
                              are not limited to, the following:



    OEI-03-09-00520           Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   2
I   N T    R O        D   U      C T           I     O      N


                                          •           proactively pursuing different sources and techniques for
                                                      analyzing data,
                                          •           performing investigations,
                                          •           referring cases to law enforcement,
                                          •           initiating appropriate administrative actions, and
                                          •           responding to requests for information from law
                                                      enforcement.
                              The ZPIC Statement of Work establishes the fundamental activities
                              that may be performed by ZPICs and awarded through individual task
                              orders. CMS has awarded several task orders to ZPICs. Each task
                              order specifies the requirements to be performed. One type of task
                              order is the fee-for-service task order; hereinafter, we refer to this as the
                              benefit integrity task order. 2 This task order involves performing
                              program integrity work for Medicare Part A, Part B, durable medical
                              equipment (DME), and home health and hospice (HH&H). 3
                              As shown in Table 1 below, the Zone 4 ZPIC received $11.4 million and
                              the Zone 7 ZPIC received $10.8 million to conduct activities under their
                              benefit integrity task orders for the first contract year
                              (September 30, 2008, through October 31, 2009). In 2009, Zone 4’s
                              jurisdiction included 9 million beneficiaries and 107 million paid claims
                              totaling $33 billion. Zone 7’s jurisdiction included 7 million
                              beneficiaries and 96 million paid claims totaling $26 billion.

                              Table 1: ZPIC Funding for First Contract Year and Oversight
                              Responsibility for Benefit Integrity Task Order for 2009

                                                            ZPIC Funding                         Number of                         Number of                      Dollar Amount
                                                         9/30/08–10/31/09                      Beneficiaries                      Paid Claims                     of Paid Claims

                                Zone 4                           $11.4 million                           9 million                   107 million                      $33 billion

                                Zone 7                           $10.8 million                           7 million                     96 million                     $26 billion

                                Source: ZPIC task orders and OIG analysis of data received from CMS, December 2010.




                                  2 Other types of task orders that CMS has awarded include, for example, one that
                              addresses the Medicare-Medicaid data match program and one that addresses home health
                              fraud specifically in the Miami-Dade, Florida, area.
                                3 Although DME services are included in Part B and HH&H services are included in

                              Part A, the benefit integrity task order separates these types of services in its reporting.



    OEI-03-09-00520           Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T                 3
I   N T    R O        D   U      C T           I     O      N


                              CMS Oversight of ZPICs’ Program Integrity Activities
                              Workload activity statistics. ZPICs are required to report monthly
                              workload statistics related to their benefit integrity task orders to CMS.
                              These statistics are reported in an online system called the CMS
                              Analysis, Reporting, and Tracking System (CMS ARTS). According to
                              the ZPIC Statement of Work, CMS uses CMS ARTS to track and
                              analyze ZPICs’ workload statistics and performance.
                              Within CMS ARTS, the workload statistics are tracked in specific
                              templates, which are described below.
                              Benefit Integrity template. Statistics in this template include, but are not
                              limited to:
                                          •           number of new investigations and new cases resulting
                                                      from proactive methods (e.g., data analysis),
                                          •           number of new investigations and new cases originating
                                                      from external sources (e.g., complaints),
                                          •           amount of overpayments referred to and recovered by the
                                                      affiliated contractor/Medicare administrative contractor
                                                      (AC/MAC), 4 and
                                          •           administrative actions initiated (e.g., number of payment
                                                      suspensions, exclusions, civil monetary penalties, and
                                                      autodeny edits).
                              Workload statistics in this template are reported separately for Part A,
                              Part B, DME, and HH&H.
                              Requests for Information template. Statistics in this template include, but
                              are not limited to:
                                          •           number of information/data analysis requests received
                                                      from OIG and the Department of Justice (DOJ) for
                                                      ZPIC-initiated and non-ZPIC-initiated cases;
                                          •           number of information/data analysis requests completed
                                                      for OIG and DOJ; and
                                          •           number of information/data analysis requests received
                                                      from, and completed for, entities other than OIG and DOJ.



                                4 AC/MACs are the contractors that process Medicare Parts A and B claims and recoup

                              overpayments referred by ZPICs.



    OEI-03-09-00520           Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   4
I   N T    R O        D   U      C T           I     O      N


                              CMS provides definitions for ZPICs to use when reporting workload
                              data. Appendix A contains definitions for selected workload statistics.
                              In addition, ZPICs include narrative information in the Benefit
                              Integrity and Requests for Information templates to provide details on
                              any significant workload activity.
                              Quality Assurance and Improvement template. One section of this
                              template requests monthly ZPIC workload statistics regarding
                              timeliness of responses to requests for information. ZPICs are required
                              to report these statistics separately for requests from OIG and DOJ.
                              The statistics are also tracked separately for Priority I and Priority II
                              requests. Priority I requests are top priority and are required to be
                              fulfilled within 30 days. Priority II requests are less critical and are
                              required to be fulfilled within 45 days. Specifically, ZPICs report the
                              number of Priority I and Priority II requests completed year-to-date and
                              the number of these that were fulfilled within the required timeframes.
                              Quarterly Requests for Information reports. At the time of our review,
                              ZPICs were required to submit quarterly reports on law enforcement
                              requests. These reports provide more detailed information than the
                              monthly statistics. The quarterly reports contain information such as
                              the source of the request, whether it was Priority I or Priority II,
                              whether it was open or closed, the date it was received, the date it was
                              closed, and a description. As of October 2010, ZPICs were no longer
                              required to submit these quarterly reports, but instead are required to
                              enter their requests for information into the Fraud Investigation
                              Database. 5
                              ZPIC Performance Evaluations
                              According to the ZPIC Statement of Work, ZPICs’ performance for each
                              task order will be evaluated annually by CMS, with the first evaluation
                              review occurring approximately 6 months after the task order is
                              awarded. The Performance Evaluation Team (PET) may evaluate any
                              requirement in the Statement of Work that is related to the task order
                              awarded. The objectives of the performance evaluation include:
                                          •           measuring and evaluating ZPICs’ performance,
                                          •           identifying opportunities to improve performance,



                               5 The Fraud Investigation Database is a CMS system that contains data on Medicare and

                              Medicaid investigations, cases, requests for information, and payment suspensions.



    OEI-03-09-00520           Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   5
I   N T    R O        D   U      C T           I     O      N


                                          •           providing a fair and accurate system of review for CMS to
                                                      ensure effective and efficient Medicare and Medicaid
                                                      program administration, and
                                          •           assessing the degree to which ZPICs’ direct and indirect
                                                      customers are satisfied with ZPIC services.
                              Some examples of potential data sources described in the ZPIC
                              Statement of Work that may be used to evaluate performance include:
                                          •           ZPIC-supplied data—Each ZPIC is required to prepare a
                                                      self-evaluation of its performance. This will be considered
                                                      as part of the annual performance evaluation.
                                          •           Internal controls—CMS may conduct internal control
                                                      reviews of ZPICs and include the results in their
                                                      performance evaluations.
                                          •           PET investigations—PET may investigate any aspect of
                                                      ZPIC activities and include findings as part of the
                                                      performance evaluations.
                              Related Studies by OIG
                              Previous OIG studies have found vulnerabilities in Medicare program
                              integrity contractors’ efforts to identify and investigate potential fraud
                              and abuse as well as limitations in CMS’s oversight of these contractors.
                              In November 1998, OIG issued a report entitled Fiscal Intermediary
                              Fraud Units (OEI-03-97-00350). OIG found that key words, including
                              “complaint” and “case,” varied in meaning among CMS and its
                              contractors, which hindered CMS’s ability to interpret fraud unit data
                              and measure fraud unit performance. OIG recommended that CMS
                              establish clear definitions of key words, establish a standard set of data
                              that can be used to measure fraud units’ performance, and include this
                              standard set of data in all contractor performance evaluation reports.
                              In March 2006, OIG issued a report entitled Medicare’s Program
                              Safeguard Contractors: Performance Evaluation Reports
                              (OEI-03-04-00050). OIG found that PSC performance evaluation
                              reports provided limited quantitative data about PSCs’ achievements
                              related to detecting and deterring fraud and abuse.
                              In July 2007, OIG issued a report entitled Medicare’s Program
                              Safeguard Contractors: Activities To Detect and Deter Fraud and
                              Abuse (OEI-03-06-00010). OIG found that PSCs differed substantially
                              in their number of new investigations and case referrals and


    OEI-03-09-00520           Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   6
I   N T    R O        D   U      C T           I     O      N


                              recommended that CMS review PSCs with low activity. In response to
                              this report, CMS stated that its new PSC (and now ZPIC) contracting
                              strategy, which realigns contractor jurisdictions to include both
                              Medicare Parts A and B, would make it easier to compare contractors.
                              CMS also stated that improvements within CMS ARTS would prevent
                              inconsistent reporting across contractors.
                              In May 2010, OIG issued a report entitled Collection Status of Medicare
                              Overpayments Identified by Program Safeguard Contractors
                              (OEI-03-08-00030). OIG found that overpayments that PSCs referred
                              for collection did not result in significant recoveries to Medicare.
                              Specifically, claims processors collected 7 percent, or $55 million, of the
                              $835 million in overpayments that PSCs referred in 2007. In response
                              to this report, CMS stated that it was adding reporting requirements
                              that would improve overpayment tracking among the MACs and
                              PSCs/ZPICs.


                              METHODOLOGY
                              Scope
                              Our study was limited to ZPICs in Zones 4 and 7 because they were the
                              only ZPICs that had completed a full contract year at the time of our
                              review. We focused on investigation and fraud case workloads as well
                              as requests for information and administrative actions related to ZPICs’
                              benefit integrity task orders during their first year of operation
                              (February 1 through October 31, 2009). 6 In addition, we gathered
                              information from the ZPICs regarding any barriers they encountered
                              while performing their contractual duties during their first full contract
                              year (September 30, 2008, through October 31, 2009).
                              Data Collection
                              We collected data from CMS and ZPICs in Zones 4 and 7. We collected
                              data from February through December 2010 and performed followup
                              from January through March 2011.
                              Data from CMS. From CMS, we collected ZPICs’ workload statistics
                              from the CMS ARTS Benefit Integrity, Requests for Information, and

                                6 The first contract year for the ZPICs in Zones 4 and 7 was September 30, 2008, through

                              October 31, 2009. However, because the ZPICs were in transition and were not fully
                              operational until February 1, 2009, we reviewed only workload statistics for the period
                              when they were fully operational. We refer to this period as their first year of operation for
                              simplicity.



    OEI-03-09-00520           Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   7
I   N T    R O        D   U      C T           I     O      N


                              Quality Assurance and Improvement templates. We collected workload
                              data for each month during the ZPICs’ first year of operation, beginning
                              with February 2009 and ending with October 2009. We also collected
                              summary workload data for the 9-month timeframe. In addition, we
                              collected the narratives included in the Benefit Integrity and Requests
                              for Information templates. We also collected the quarterly law
                              enforcement Requests for Information reports for the ZPICs’ first year of
                              operation.
                              Additionally, we reviewed the CMS ARTS workload definitions and
                              contacted CMS staff to obtain clarification on the definitions and to help
                              resolve discrepancies in the workload data.
                              We also requested performance evaluations for the ZPICs’ first contract
                              year. For each ZPIC, we received a performance evaluation report that
                              covered the period September 30, 2008, through April 30, 2009. As of
                              March 2011, evaluation reports covering the period May 1 through
                              October 31, 2009, had not been completed.
                              Data from ZPICs. We sent each ZPIC its Benefit Integrity and Requests
                              for Information workload data, which we had received from CMS. We
                              asked ZPICs to review the information to ensure its accuracy and either
                              confirm that it was correct or provide corrected information. We did not
                              ask ZPICs to review their data in the Quality Assurance and
                              Improvement template.
                              To obtain additional information, we sent a data collection instrument
                              to the ZPICs. The information collected included the types of potential
                              fraud and abuse investigated and referred to OIG, the types of proactive
                              data analysis conducted, and the number of overpayment recoupment
                              actions related to cases. We also requested information about any
                              barriers encountered relating to data access, fraud and abuse
                              investigation, referrals for administrative actions, and responding to
                              requests for information.
                              Data Analysis
                              We reviewed the workload data in the Benefit Integrity template to
                              identify any inconsistencies. We analyzed data on ZPICs’
                              investigations, case referrals, and administrative actions by type of
                              service. We calculated the total number of investigations and cases
                              handled by the ZPICs and aggregated the dollars associated with
                              administrative actions (e.g., overpayments). We also calculated the
                              percentage of investigations and cases that originated from external
                              sources and proactive methods. We determined the percentage of

    OEI-03-09-00520           Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   8
I   N T    R O        D   U      C T           I     O      N


                              investigations, cases, and referred overpayment dollars associated with
                              each type of service (i.e., Part A, Part B, DME, and HH&H).
                              From the Requests for Information workload data, we determined the
                              number of requests that ZPICs received from OIG, DOJ, and other
                              entities during their first year of operation. We compared the Requests
                              for Information workload data to the data provided in the Requests for
                              Information quarterly reports.
                              We reviewed the requests for information data from the Quality
                              Assurance and Improvement template to determine whether they
                              corresponded to the data in the quarterly Requests for Information
                              reports and to identify any inconsistencies in the template itself.
                              We also used the quarterly Requests for Information reports and
                              information in the Requests for Information workload narratives to
                              determine the timeliness of ZPICs’ response to OIG and DOJ requests
                              for information. Appendix B provides a detailed explanation of our
                              methodology for determining timeliness of requests for information.
                              We reviewed the ZPICs’ performance evaluation reports to determine
                              the extent to which they incorporated program integrity workload
                              statistics. In addition, we compared the data on the timeliness of
                              requests for information in the performance evaluations with the
                              timeliness data in the quarterly Requests for Information reports and
                              the Quality Assurance and Improvement template.
                              From the ZPIC survey, we aggregated the types of potential fraud and
                              abuse that were investigated and referred to law enforcement, as well
                              as the number of overpayment recoupment actions associated with
                              cases. We also identified the types of proactive data analysis conducted.
                              Additionally, we compiled any barriers reported by the ZPICs regarding
                              data access, performance of administrative actions, and response to
                              requests for information.
                              For ease of reporting, we differentiate between the ZPICs, when
                              necessary, by referring to them as either ZPIC A or ZPIC B in our
                              report.
                              Limitations
                              The program integrity workload data and survey information included
                              in the report are self-reported by the ZPICs. Although we asked ZPICs
                              to verify the accuracy of their workload data, we did not independently
                              validate the information.


    OEI-03-09-00520           Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   9
I   N T    R O        D   U      C T           I     O      N


                              Standards
                              This study was conducted in accordance with the Quality Standards for
                              Inspection and Evaluation issued by the Council of the Inspectors
                              General on Integrity and Efficiency.




    OEI-03-09-00520           Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   10
    F I N D I N G S

                                                         There were inaccuracies and a
Workload data used by CMS to oversee ZPICs
                                                         lack of uniformity in ZPICs’ data
               were not accurate or uniform
                                                         during their first year of
                   operation (February through October 2009). The inaccuracies and lack
                   of uniformity resulted from system issues in CMS ARTS, ZPIC
                   reporting errors, ZPICs’ interpretations of workload definitions, and
                   inconsistencies in requests for information reports.
                   System issues in CMS ARTS led to inaccurate ZPIC data
                   In reviewing the original CMS ARTS data we received from CMS, we
                   identified a system issue that led to inaccurate ZPIC workload data.
                   Specifically, we identified two fields in the Benefit Integrity template
                   that were not being calculated correctly in CMS ARTS. The fields were
                   “Number of new investigations originating from reactive sources” and
                   “Number of new cases referred originating from reactive sources.” The
                   correct values for these fields should have been calculated by summing
                   several data fields; however, CMS ARTS was not summing the fields
                   correctly, resulting in incorrect totals. A visual review of the workload
                   data revealed the system error. CMS worked with its CMS ARTS
                   contractor to correct the system errors and, at our request, resubmitted
                   the corrected data reports to us. Appendix A contains the definitions of
                   selected CMS ARTS workload statistics.
                   ZPIC reporting errors led to inaccurate data in CMS ARTS
                   Based on our initial review of ZPICs’ workload data, we found
                   discrepancies that prompted us to request the ZPICs to review their
                   data. For example, we identified discrepancies between one ZPIC’s
                   Request for Information workload data and the requests for information
                   data in its quarterly reports. Additionally, we identified discrepancies
                   between the fields in CMS ARTS that capture the number of fraud cases
                   open at the beginning of the month and the number open at the end of
                   the month. It did not appear that CMS had identified these
                   discrepancies or had asked the ZPICs to review or revise their data.
                   ZPICs reviewed their data and reported that some of the workload data
                   they originally submitted to CMS were incorrect. ZPIC A provided us
                   with revised workload data that increased its number of requests for
                   information received from 480 to 516. ZPIC B provided us with revised
                   workload data that increased the amount of its overpayment dollars
                   recovered in 1 month from $0 to $155,174; ZPIC B also increased its
                   total number of case referrals from seven to nine.



 OEI-03-09-00520   Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   11
F   I   N   D I       N G    S


                            Moreover, according to the workload definitions, the number of cases
                            that were open and active at the beginning of the month should equal
                            the number of cases open and active at the end of the previous month.
                            However, even after ZPICs submitted their revised data to us, we
                            identified instances in which these numbers did not match.
                            ZPICs’ interpretation of workload definitions led to a lack of uniformity in
                            workload data
                            New investigations. Based on ZPICs’ workload data, ZPIC A opened
                            404 new investigations and ZPIC B opened 2,409 new investigations.
                            As shown in Table 2, ZPIC B’s number of investigations originating
                            from external sources (e.g., complaints) was seven times higher than
                            ZPIC A’s (2,305 versus 312).


                            Table 2: New ZPIC Investigations by Source

                                                                       External Source                         Proactive Method                                 Total

                              ZPIC A                                                         312                                          92                     404

                              ZPIC B                                                      2,305                                         104                     2,409

                                   Both ZPICs                                             2,617                                         196                     2,813

                              Source: OIG analysis of ZPICs’ Benefit Integrity Workload data, February 1 through October 31, 2009.



                            In reviewing ZPIC workload data and following up with ZPIC staff, we
                            determined that the two ZPICs counted and reported their new
                            investigations differently in their CMS ARTS workload statistics.
                            Specifically, ZPIC B explained that it included all fraud complaints in
                            its number of new investigations in CMS ARTS, regardless of whether
                            those complaints were merged into one investigation of a particular
                            provider. However, ZPIC A explained that if it received one complaint
                            on a particular provider and started an investigation and then received
                            another complaint on the same provider, this would not be counted as a
                            new investigation in the workload statistics. This lack of uniformity in
                            ZPICs’ reporting could account for the disparity between the ZPICs’
                            numbers of new investigations opened during our timeframe and could
                            also affect CMS’s ability to accurately assess ZPICs’ performance.
                            ZPIC-initiated work. In the workload statistics, ZPICs report whether
                            requests for information submitted by OIG and DOJ were based on
                            ZPIC-initiated cases or non-ZPIC-initiated cases. The workload
                            statistics showed that one ZPIC had no requests as a result of

    OEI-03-09-00520         Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T     12
F   I   N   D I       N G    S


                            ZPIC-initiated cases, whereas the other ZPIC reported that nearly all of
                            its OIG/DOJ requests were results of ZPIC-initiated cases. Because of
                            this disparity, we followed up with the latter ZPIC and learned that it
                            included its prior work as a PSC when reporting the number of requests
                            it received as a result of ZPIC-initiated cases. The ZPICs’ different
                            interpretations of definitions involving ZPIC-initiated work could lead
                            them to provide CMS with inaccurate data for reviewing performance in
                            this area.
                            Overpayments. Several fields in the workload statistics capture
                            information on overpayments; however, the definitions of these fields
                            were problematic for at least one ZPIC. As shown in Appendix A, three
                            overpayment fields are located in the investigation workload section
                            (fields A9, A10, and A14) and two overpayment fields are located in the
                            fraud case workload section (fields B7 and B13).
                            In reviewing one ZPIC’s survey and workload data, we identified an
                            inconsistency and followed up with that ZPIC. We learned that
                            although the fields for “Dollar amount referred to the AC/MAC for
                            overpayment collection” and “Number of overpayment recoupment
                            actions referred to the AC/MAC” are located under the investigation
                            workload section, the definitions do not indicate whether CMS is
                            referring to overpayment referrals based on a case or an investigation.
                            Therefore, this ZPIC included data relating to investigations and cases
                            in both of these fields instead of just information related to
                            investigations.7 This could prevent CMS from accurately identifying
                            overpayments associated with investigations versus those associated
                            with cases.
                            Reports regarding requests for information were inconsistent
                            The ZPICs’ quarterly Requests for Information reports and their
                            Quality Assurance and Improvement reports each contain information
                            regarding the number of OIG and DOJ requests for information
                            completed and the ZPICs’ timeliness in completing these requests.
                            However, we found inconsistencies regarding the ZPICs’ reporting of
                            requests for information between the two reports. For example, our
                            analysis of one ZPIC’s quarterly report data from February through


                                7 There is a field relating to the number of overpayment recoupment actions referred to

                            the AC/MAC in the investigations workload area but not in the case workload area. CMS
                            staff reported that they were planning to add this field when they make system
                            enhancements to CMS ARTS.



    OEI-03-09-00520         Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   13
F   I   N   D I       N G    S


                            October 2009 showed that the ZPIC completed 31 Priority I requests for
                            OIG, with 19 percent not completed within 30 days. However, this
                            ZPIC’s Quality Assurance and Improvement data for the same period
                            indicated that the ZPIC completed just eight Priority I requests for OIG,
                            with 25 percent not completed within 30 days.
                            In addition, we found inconsistencies within the Quality Assurance and
                            Improvement report from month to month. For example, although
                            ZPICs are instructed to report the number of requests completed
                            year-to-date, we found instances in which the number of completed
                            requests decreased from one month to the next. Moreover, although
                            ZPICs are instructed to report the number of Priority I requests for
                            information completed year-to-date and the number of these requests
                            fulfilled within 30 days, we observed instances in which the number of
                            requests completed within the 30-day required timeframe was greater
                            than the total number of requests completed.
                                                                  One of our objectives was to
    The inaccuracy and nonuniformity of ZPICs’
                                                                  describe the extent of ZPICs’
     data prevented a conclusive assessment of
                                                                  program integrity activities
              ZPICs’ program integrity activities                 during their first year of operation
                            (February through October 2009). However, the inaccuracies and lack
                            of uniformity in the ZPICs’ data prevented us from making a conclusive
                            assessment of their activities.
                            We have provided ZPICs’ workload data and data obtained through our
                            survey in Appendix B to give a general sense of the ZPICs’ self-reported
                            program integrity activities. Appendix B provides information on
                            ZPICs’ investigation and case referral activity, utilization of external
                            and proactive methods, activities related to requests for information,
                            and activities related to overpayments and other administrative actions.
                            The inconsistencies we identified in ZPICs’ reporting are similar to the
                            issues we identified more than 10 years ago in our review of Medicare
                            fraud units.8 In that report, we found that definitions of key terms,
                            including “complaint” and “case,” varied in meaning among CMS and its
                            contractors, which hindered CMS’s ability to interpret data and
                            measure fraud unit performance. Similarly, the inconsistencies and
                            lack of uniformity we identified in ZPICs’ reporting could prevent CMS
                            from performing effective oversight of the ZPICs.


                                8 OIG,      Fiscal Intermediary Fraud Units, OEI-03-97-00350, November 1998.



    OEI-03-09-00520         Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   14
F   I   N   D I       N G    S


                            In response to our previous work on PSCs’ identification of potential
                            fraud and abuse, CMS stated that its new contracting strategy of
                            realigning contractor jurisdictions to include both Medicare Parts A
                            and B would make it easier to compare contractors. 9 CMS also stated
                            that improvements within CMS ARTS would prevent inconsistent
                            reporting across contractors. However, our current review has
                            identified incorrect and nonuniform reporting in CMS ARTS that could
                            prevent CMS from both accurately measuring an individual ZPIC’s
                            performance and comparing workload statistics across ZPICs.
                                                                   CMS did not include the results of
        CMS’s performance evaluations of ZPICs                     many workload statistics in ZPICs’
              contained few workload statistics                    performance evaluation reports.
                                                                   Neither ZPIC evaluation included
                            the number or percentage of investigations or cases initiated as a result
                            of proactive methods. Additionally, neither evaluation reported on the
                            number of overpayment actions initiated or the overpayment dollars
                            referred. While one ZPIC’s evaluation included the number of
                            investigations initiated, the other did not. This lack of quantitative
                            workload data is similar to the results of our past work on PSC
                            performance evaluations, which found that PSC evaluation reports
                            provided limited quantitative data about PSCs’ achievements related to
                            detecting and deterring fraud and abuse. 10
                            Both ZPICs’ evaluations did provide some information on the timeliness
                            of requests for information. However, one ZPIC’s evaluation report
                            provided the average response time for completing Priority I and
                            Priority II requests but did not provide information on the number of
                            requests completed or the number that exceeded the required
                            timeframes. The other ZPIC’s evaluation report provided the number of
                            Priority I requests that were completed and the number that exceeded
                            the timeframe; however, these data did not coincide with the data
                            provided in the ZPIC’s Requests for Information quarterly reports or in
                            the Quality Assurance and Improvement template.
                            Although the ZPIC Statement of Work does not specify that workload
                            statistics should be included in CMS’s performance evaluations of the


                              9 OIG, Medicare’s Program Safeguard Contractors: Activities To Detect and Deter Fraud

                            and Abuse, OEI-03-06-00010, July 2007.
                              10 OIG, Medicare’s Program Safeguard Contractors: Performance Evaluation Reports

                            (OEI-03-04-00050), March 2006.



    OEI-03-09-00520         Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   15
F   I   N   D I       N G    S


                            ZPICs, it does state that CMS uses CMS ARTS data to track and
                            analyze ZPIC workload, performance, and production. Including
                            workload statistics in ZPICs’ performance evaluations would help
                            ensure that CMS performs a thorough assessment of ZPICs’
                            performance.

    Data access issues affected ZPICs’ ability to                 ZPICs reported that data access
            perform program integrity activities                  issues affected their ability to
                                                                  identify potential fraud and abuse,
                            respond to requests for information, and track overpayment collections.
                            At the start of their contracts, ZPICs had difficulties obtaining data. As
                            outlined in the Statement of Work, ZPICs were required to obtain
                            3 years’ worth of Medicare claims data. According to CMS staff, the
                            outgoing PSCs were to provide these data to the ZPICs. However,
                            ZPIC A described difficulties obtaining claims data from a previous PSC
                            and, therefore, decided to purchase the claims data on its own from
                            another CMS contractor. This caused a 30-day delay in data
                            availability during the first month of operations. ZPIC B stated that at
                            the beginning of its contract, the data necessary to fulfill the requests
                            for information were not available or had to be generated from multiple
                            sources. For a short time, this ZPIC contracted with a prior PSC to
                            fulfill DME requests for information because the data being requested
                            were not available to the ZPIC.
                            Both ZPICs reported that improved data access would assist them in
                            identifying potential fraud and abuse. The ZPICs explained that it
                            would be beneficial to have access to daily downloads of Part A, Part B,
                            DME, and HH&H claims data. This would enable the ZPICs to perform
                            near-real-time analysis of a provider’s or supplier’s billing activity. The
                            ZPICs explained that they are working with CMS to receive access to
                            these data. Additionally, one ZPIC reported that having access to
                            Medicare Part C and Part D data would enable the ZPIC to have a full
                            picture of a provider’s billing pattern.
                            In response to our previous work on the collection status of PSCs’
                            overpayments, CMS stated that it had issued new requirements for
                            ZPICs and MACs to assist with overpayment reporting.11 However,
                            ZPICs identified barriers to tracking overpayment collections relating to


                              11 OIG, Collection Status of Medicare Overpayments Identified by Program Safeguard

                            Contractors (OEI-03-08-00030), May 2010.



    OEI-03-09-00520         Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   16
F   I   N   D I       N G    S


                            home health and DME. The ZPICs reported that the format of the
                            overpayment reports received from Medicare claims processors makes it
                            difficult to identify the overpayments related to their jurisdictions.
                            ZPIC A stated that it has worked with the MACs and now can properly
                            identify the majority of the money collected. ZPIC B reported that its
                            issues relating to home health had been resolved but that it was still
                            having issues with the overpayments relating to DME. The ZPIC
                            explained that the overpayment recoupment report provided by the
                            MAC does not enable the ZPIC to track the money collected on its
                            overpayment referrals.




    OEI-03-09-00520         Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   17
   R E C O M M E N D A T I O N S

                  OIG has a long history of reviewing Medicare’s program integrity
                  contractors and their ability to detect and deter fraud, waste, and abuse.
                  This review covered the first two ZPICs’ first year of operation.
                  Conducting an initial assessment of the two ZPICs’ activities provides
                  CMS with important information that would be helpful in its oversight
                  of all ZPICs’ performance.
                  Although one of our objectives was to describe the extent of ZPICs’
                  program integrity activities, the inaccuracies and lack of uniformity we
                  identified in ZPICs’ data prevented us from making a conclusive
                  assessment of their activities. Additionally, we found that data access
                  issues affected ZPICs’ ability to perform program integrity activities.
                  Moreover, some of the issues we identified are similar to past OIG
                  report findings. Specifically, the lack of uniformity in ZPICs’ reporting
                  is similar to what we found regarding Medicare Part A fraud units more
                  than a decade ago. Furthermore, the lack of quantitative workload data
                  in ZPICs’ performance evaluations is similar to the results we identified
                  more than 5 years ago in our work on PSC performance evaluations.
                  Additionally, although CMS has stated that its new contracting
                  strategy, which realigns contractor jurisdictions to include both
                  Medicare Parts A and B, would make it easier to compare contractors,
                  the issues we identified could prevent CMS from accurately comparing
                  workload data across ZPICs.
                  The issues we identified have been problematic for some time and
                  present a serious obstacle to CMS in effectively overseeing ZPIC
                  operations. These issues need to be corrected so that CMS can analyze
                  ZPICs’ effectiveness in detecting and deterring fraud, waste, and abuse.
                  Correcting these issues also will enable CMS to determine how well
                  ZPICs are performing compared to other ZPICs and PSCs. Therefore,
                  we recommend that CMS:
                  Clarify the workload definitions in CMS ARTS to ensure that ZPICs’ workload
                  statistics are accurate and that ZPICs report their data uniformly
                  CMS should clarify the definitions of the workload statistic fields in
                  CMS ARTS and discuss the definitions with the ZPICs to ensure
                  uniformity of reporting across ZPICs.




OEI-03-09-00520   Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   18
R   E C     O    M    M   E     N D           A T           I     O      N      S


                          Improve oversight of ZPICs by performing a timely review of the data in CMS
                          ARTS for each ZPIC and across ZPICs to detect any anomalies in workload
                          reporting
                          This would enable CMS to identify any issues that need to be further
                          addressed and identify ZPICs that may need further oversight.
                          Utilize and report ZPIC workload statistics in ZPIC evaluations
                          CMS requires ZPICs to report workload statistics in CMS ARTS that
                          could be valuable to CMS in its oversight and evaluation of ZPICs.
                          Once CMS has ensured that ZPICs’ workload statistics are being
                          accurately and uniformly reported, CMS should utilize and report these
                          statistics in ZPICs’ performance evaluations.
                          Ensure that ZPICs have access to all data necessary to effectively carry out
                          their program integrity activities
                          CMS should ensure that ZPICs have all data necessary to improve their
                          identification of potential fraud and abuse, respond to requests for
                          information, and track overpayment collections. For example, CMS
                          should ensure that ZPICs have access to the necessary claims data at
                          the start of their contracts, have access to near-real-time data, and
                          receive MAC overpayment reports that are separated by ZPIC
                          jurisdiction to enable ZPICs to determine which recovered
                          overpayments are associated with their overpayment referrals.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS believes it has already complied with our first recommendation.
                          CMS stated that there were some early misunderstandings, which have
                          since been clarified, and believes the workload definitions are now
                          written clearly. We ask that CMS, in its final management decision,
                          provide OIG with documentation of the revised definitions.
                          CMS concurred with the first part of our second recommendation, to
                          perform a timely review of data in CMS ARTS for each ZPIC. CMS
                          stated that it has developed a monthly dashboard of key statistical
                          indicators in CMS ARTS. However, CMS did not state how often it was
                          reviewing these indicators along with ZPICs’ other monthly workload
                          statistics to detect any anomalies in ZPIC reporting. CMS did not
                          concur with the second part of our recommendation, to perform a timely
                          review of data across ZPICs. In response to our previous work on PSCs’
                          identification of potential fraud and abuse, CMS stated that its new
                          strategy of realigning contractor jurisdictions to include both Medicare

    OEI-03-09-00520       Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   19
R    E C     O   M    M   E     N D           A T           I     O      N       S


                          Parts A and B would make it easier to compare contractors. However,
                          in its current comments, CMS stated that this new strategy does not
                          make it possible to compare the zones and that anomalies cannot be
                          detected across ZPICs because of the differences in fraud landscapes
                          between the ZPICs. We disagree and note that we detected anomalies
                          in reporting across ZPICs, including differences in the way the ZPICs
                          were reporting their numbers of new investigations. We maintain that
                          reviewing data across ZPICs will enable CMS to detect anomalies in
                          workload reporting and identify ZPICs that may need additional
                          oversight.
                          CMS partially concurred with our third recommendation and stated it
                          will consider including workload statistics for future evaluations, if
                          appropriate. CMS stated that it cannot evaluate a ZPIC based on the
                          number or percentage of investigations or cases initiated as a result of
                          proactive methods, the number of overpayment actions initiated, or the
                          associated overpayment dollars referred. CMS stated that these data
                          can vary widely from month to month and are not a good indicator of
                          performance because they are not within the control of the ZPIC. OIG
                          maintains that quantitative measures, such as the number of
                          investigations and cases initiated as a result of proactive methods, are
                          within the control of the ZPIC. While these measures should not be the
                          sole indicator of ZPIC performance, they can provide valuable
                          information on the level of ZPIC activity and the quality of ZPIC
                          performance. OIG continues to support the need for both quantitative
                          and qualitative measures in ZPICs’ performance evaluations. CMS
                          stated its willingness to work with OIG to identify workload statistics
                          that would relate directly to ZPICs’ performance.
                          CMS concurred with our fourth recommendation and stated that the
                          currently awarded ZPIC Statements of Work require ZPICs to have
                          access to daily downloads of shared system claims data. Additionally,
                          CMS stated that it believes an effective workaround was developed for
                          every data access problem identified in our study. The full text of
                          CMS’s comments is provided in Appendix C.




    OEI-03-09-00520       Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   20
            A P P E N D I X ~ A



Table A-1: Definitions for Selected Workload Data Fields in the Centers for Medicare
& Medicaid Services’ Analysis, Reporting, and Tracking System

                            Field                                                                                               Definition

A. Investigation Workload
                                                                                     This number reflects all new investigations originating from
                                                                                     specific complaints and/or information. This is a count of
A3. Number of new investigations originating from reactive
                                                                                     investigations, not individual target providers within an
sources
                                                                                     investigation. The amount reported in this field should total the
                                                                                     workload entered in A3a–A3e.
                                                                                     This reflects the number of new investigations referred to the
                                                                                     Zone Program Integrity Contractor (ZPIC) Benefit Integrity Unit
A3a. Medical Review                                                                  (BIU) from the Affiliated Contractor /Medicare Administrative
                                                                                     Contractor (AC/MAC) Medical Review unit (since the beginning
                                                                                     of the month).
                                                                                     This reflects the number of new investigations referred to the
A3b.AC/MAC Complaint Unit                                                            ZPIC BIU from the AC/MAC’s Complaint Unit (since the
                                                                                     beginning of the month).
                                                                                     This reflects the number of new investigations referred to the
A3c. Other                                                                           ZPIC BIU from sources other than those specified above (since
                                                                                     the beginning of the month).
                                                                                     This reflects the number of new investigations originating from
A3d. CMS Field Offices
                                                                                     a CMS Field Office (since the beginning of the month).
                                                                                     This reflects the number of new investigations referred to the
A3e. Other ZPIC Task Orders                                                          ZPIC BIU from other ZPIC Task Orders (since the beginning of
                                                                                     the month).
A4. Number of new investigations resulting from proactive                            This number reflects all new investigations originating from
leads                                                                                self-initiated means.
                                                                                     This reflects the number of investigations that are open and
                                                                                     active in the ZPIC BIU at the end of the month. The amount
A7. Number of investigations open and active at the end of the
                                                                                     reported here reflects the amounts reported in
month
                                                                                     A1+A3+A4-A5-A6+any investigations reprioritized into an
                                                                                     active status from A8.
A9. Dollar amount referred to the AC/MAC for overpayment                             This reflects the dollar amount that the ZPIC BIU referred to
collection                                                                           the AC/MAC for collection.
                                                                                     This reflects the number of recoupment actions referred for
A10. Number of overpayment recoupment actions referred to
                                                                                     overpayment that the ZPIC BIU submitted to the AC/MAC this
the AC/MAC
                                                                                     month.
A14. Dollar amount recovered on overpayments related to
                                                                                     This reflects the actual dollar amount recovered as a result of
investigations, determined by the ZPIC and referred to the
                                                                                     ZPIC BIU recoupment actions referred to the AC/MAC.
AC/MAC for collection
B. Fraud Case Workload
                                                                                     This reflects the number of fraud cases that are open and
B1. Number of fraud cases open and active at the beginning
                                                                                     active at the beginning of the month. This number should
of the month
                                                                                     equal B5 from the prior month.

                                                                                     This number reflects all cases originating from the sources
B2. Number of new cases referred originating from reactive
                                                                                     specified below and should total the workload entered in
sources
                                                                                     B2a–B2e.
                                                                                     This reflects the number of new cases referred by the ZPIC
B2a. Medical Review                                                                  BIU that originated from the AC/MAC Medical Review unit
                                                                                     (since the beginning of the month).
                                                                                     This reflects the number of new cases referred by the ZPIC
B2b. AC/MAC Complaint Unit                                                           BIU that originated from the AC/MAC’s Complaint Unit (since
                                                                                     the beginning of the month).
                                                                                                                                                          continued on next page


        OEI-03-09-00520         Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T            21
A     P P        E   N   D I    X    ~     A



Table A-1: Definitions for Selected Workload Data Fields in the Centers for Medicare
& Medicaid Services' Analysis, Reporting, and Tracking System (Continued)
                                 Field                                                                                                Definition
                                                                                           This reflects the number of new cases referred by the ZPIC
    B2c. Other                                                                             BIU that originated from sources other than those specified
                                                                                           above (since the beginning of the month).
                                                                                           This reflects the number of new cases originating from CMS
    B2d.CMS Field Offices
                                                                                           Field Offices during the month being reported on.
                                                                                           This reflects the number of cases originating from other ZPIC
    B2e. Other ZPIC Task Orders
                                                                                           Task Orders during the month being reported.
    B3. Number of new cases referred resulting from proactive                              This number reflects all new cases originating from
    leads                                                                                  self- initiated means.
                                                                                           This reflects the number of cases that are open and active in
    B5. Number of cases open and active at the end of the month
                                                                                           the ZPIC BIU at the end of the month.
                                                                                           This reflects the dollar amount that the ZPIC BIU referred to
    B7. Total dollars as a result of administrative action on cases
                                                                                           the AC/MAC for collection on cases this month only.
    B13. Dollar amount recovered on overpayments related to
                                                                                           This reflects the actual dollar amount recovered as a result of
    cases, determined by the ZPIC and referred to the AC/MAC for
                                                                                           ZPIC BIU recoupment actions referred to the AC/MAC.
    collection
    C. Medical Review in Support of Benefit Integrity
                                                                                           This reflects the total number of prepay claims denied, in part
                                                                                           or in full. Claims with a single line item denial shall be
    C1g. Total number of prepay claims denied                                              considered a full prepay claim denial. Claims that are denied
                                                                                           based on lack of medical records following an Additional
                                                                                           Documentation Request (ADR) shall also be included.
                                                                                           This reflects the dollar amount of prepay claims denied
                                                                                           represented in C1e. Where line item or partial denials were
    C1g1. The dollar amount of prepay claims denied                                        made, only include the actual amount denied as opposed to
                                                                                           the total amount of the claim. This shall include claim denials
                                                                                           for lack of medical records following a nonresponse to an ADR.
    D. Administrative Activities
                                                                                           This reflects the number of official petitions submitted to CMS
                                                                                           to suspend providers during the month. Providers with multiple
                                                                                           Provider Identification Numbers (PINs) assigned will be
    D1a. Number of new payment suspension requests submitted
                                                                                           considered as a single provider, even when multiple PINs are
    to CMS during the month
                                                                                           suspended. Providers assigned to Group Practices where the
                                                                                           group is suspended as well, shall be considered as separate
                                                                                           suspensions.

    D1b. Number of payment suspension requests denied by                                   This reflects the number of official petitions submitted that were
    CMS during the month                                                                   denied by CMS during the month.

                                                                                           This reflects the number of providers referred to the Office of
    D2a. Number of providers newly referred for exclusion                                  the Inspector General (OIG) for exclusion during the month.

    D3a. Number of Civil Monetary Penalties (CMP) referred to                              This reflects the number of CMPs referred by the ZPIC to
    OIG or CMS for consideration                                                           either CMS or OIG for consideration during the month.

                                                                                           This reflects the number of new benefit integrity auto-deny
    D5a. The number of new auto-deny edits recommended for                                 edits, created by the ZPIC either solely or jointly with the
    implementation                                                                         AC/MAC, that the ZPIC recommends for payment system
                                                                                           implementation this month.
                                                                                           This reflects the total number of ZPIC-recommended
    D5b. The total number of ZPIC-recommended auto-deny edits
                                                                                           auto-deny edits that were in place during any part of the
    that were in effect during the month
                                                                                           month.
                                                                                                                                                                continued on next page




            OEI-03-09-00520           Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T            22
      A   P P       E   N    D I       X     ~      A

Table A-1: Definitions for Selected Workload Data Fields in the Centers for Medicare
& Medicaid Services' Analysis, Reporting, and Tracking System (Continued)

                               Field                                                                                               Definition

 E. Information/Data Requests
 E1a. Number of information/data analysis requests received                             This reflects the number of information/data analysis requests
 from the OIG/ Department of Justice (DOJ) for ZPIC initiated                           (including requests for Medical Review) received from the
 cases                                                                                  OIG/DOJ for ZPIC initiated cases this month.
                                                                                        This reflects the number of information/data analysis requests
 E1b. Number of information/data analysis requests received
                                                                                        (including requests for Medical Review) received from the
 from the OIG/DOJ for non-ZPIC initiated cases
                                                                                        OIG/DOJ for non-ZPIC initiated cases.
                                                                                        This reflects the number of information/data analysis requests
 E1c. Number of information/data analysis requests completed                            completed for the OIG/DOJ during the month. This number
 for the OIG/DOJ                                                                        represents both ZPIC initiated and non-ZPIC initiated
                                                                                        completions.
                                                                                        This reflects the number of information/data analysis requests
                                                                                        received from "Other." "Other" includes, but is not limited to,
 E2a. Number of formal information/data analysis requests
                                                                                        CMS, Internal Revenue Service (IRS), Medicaid Fraud Control
 received from "Other" Entities
                                                                                        Units (MFCU), State Investigative Departments, or State
                                                                                        Attorney General Offices.
                                                                                        This reflects the number of information/data analysis requests
                                                                                        completed for "Other" during the month. This number
 E2b. Number of formal information/data analysis requests                               represents both ZPIC initiated and non-ZPIC initiated
 completed for "Other" Entities                                                         completions. "Other" includes, but is not limited to, CMS, IRS,
                                                                                        MFCUs, State Investigative Departments, or State Attorney
                                                                                        General Offices.

 Source: CMS ARTS definitions document received from CMS, July 2010.




          OEI-03-09-00520          Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   23
        A    P P
                A EP NP DE I N X D I B X ~ B

  Zone Program Integrity Contractors’ Program Integrity Activities and Workload Data

  One of our objectives was to describe the extent of Zone Program Integrity Contractors’ (ZPIC)
  program integrity activities during their first year of operation (February through October
  2009). In this appendix, we provide ZPICs’ workload data, as well as data obtained through
  our survey, to give a general sense of the program integrity activities as reported by the
  ZPICs. However, inaccuracies and a lack of uniformity in the ZPICs’ data prevented us from
  making a conclusive assessment of their activities.

  ZPICs’ Investigation and Case Referral Activity

  ZPICs investigate potential fraud and abuse on the part of providers and suppliers that
  receive reimbursement under Medicare Parts A and B. When ZPICs receive an allegation of
  fraud or identify a potentially fraudulent situation, they investigate to determine the facts
  and magnitude of the alleged fraud. For example, ZPICs may review a sample of claims,
  interview a sample of beneficiaries, or perform data analysis to substantiate the allegation.
  ZPICs consult with the Office of Inspector General (OIG) on the facts of the investigation and
  obtain OIG’s recommendation on whether the investigation should be further developed as a
  case referral.

  Table B-1 shows the number and percentage of new investigations opened by ZPICs by the
  types of services involved. Table B-2 shows the number and percentage of cases referred to
  law enforcement by the types of services involved. Table B-3 provides the types and
  percentages of potential fraud and abuse involved with ZPICs’ new investigations and case
  referrals.

  Table B-1: New ZPIC Investigations by Type of Service
                         Part A                                 Part B                                       DME2                                        HH&H2

                Number       Percentage            Number            Percentage                 Number             Percentage                Number             Percentage       Total

ZPIC A1                69             17%                 165                     41%                     83                   21%                     87                  22%    404


ZPIC B1             1,295             54%                 231                     10%                   818                    34%                     65                  3%    2,409

   Both
                    1,364             48%                 396                     14%                   901                    32%                   152                   5%    2,813
   ZPICs

Source: OIG analysis of ZPICs’ Benefit Integrity Workload data, February 1 through October 31, 2009.
1
  Percentages across the row do not total 100 percent because of rounding.
2
  “DME” refers to durable medical equipment and “HH&H” refers to home health and hospice.




            OEI-03-09-00520            Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T         24
       A      P P     E     N      D I      X      ~      B


Table B-2: New ZPIC Case Referrals by Type of Service
                          Part A                                 Part B                                          DME                                        HH&H

                Number       Percentage             Number             Percentage                Number             Percentage                 Number            Percentage          Total

ZPIC A                  0                0%                   28                   67%                     11                    26%                      3                  7%           42


ZPIC B1                 2             22%                       4                  44%                       3                   33%                      0                  0%            9

   Both
                        2                4%                   32                   63%                     14                    27%                      3                  6%           51
   ZPICs

Source: OIG analysis of ZPICs’ Benefit Integrity workload data, February 1 through October 31, 2009.
1
  Percentages across the row do not total 100 percent because of rounding.


Table B-3: Types and Percentages of Potential Fraud and Abuse Involved With
ZPICs’ New Investigations and New Case Referrals
                                                                                  Percentage of Total New                                     Percentage of Total New Case
  Types of Potential Fraud and Abuse
                                                                                           Investigations                                                          Referrals
  Billing for services not furnished or
                                                                                                                     32%                                                           26%
  supplies not provided
  Aberrant billing patterns—e.g., pattern of
  overutilization of services or outlier                                                                             18%                                                            8%
  payments

  Vacant supplier location or shell provider                                                                         12%                                                           18%

  Billing for medically unnecessary
                                                                                                                     11%                                                           19%
  services or supplies
  Utilizing compromised or stolen
  beneficiary health insurance claim
                                                                                                                     10%                                                           18%
  numbers or provider identification
  numbers
  Schemes of collusion—e.g., soliciting,
  offering, or receiving a kickback, bribe,                                                                            6%                                                           1%
  or rebate
  Misrepresenting the beneficiary's
  condition or billing for services for
                                                                                                                       4%                                                           9%
  beneficiaries who do not meet Medicare
  coverage guidelines
  Misclassifications of Diagnosis-Related
                                                                                                                       3%                                                           0%
  Groups
  Altering medical documentation or claim
                                                                                                                       1%                                                           3%
  forms
  Other                                                                                                                4%                                                           0%
                                                                                                                           1
      Total                                                                                                       100%                                                            100%1

  Source: OIG analysis of ZPICs’ survey response for first year of operation.
  1
    Percentages do not total 100 percent because of rounding.




           OEI-03-09-00520               Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T            25
       A    P P       E   N    D I        X      ~      B



ZPICs’ Utilization of External and Proactive Methods

ZPICs are required to pursue leads from both proactive methods and external sources to
address potential fraud and abuse. Proactive methods include, but are not limited to, data
analysis and reviewing the Fraud Investigation Database, the Internet, and news media.
Fraud leads from external sources include, but are not limited to, law enforcement referrals;
Centers for Medicare & Medicaid Services (CMS) referrals; and beneficiary complaints,
including those received from the affiliated contractor/Medicare administrative contractor
(AC/MAC) complaint unit. According to CMS’s Medicare Program Integrity Manual (PIM),
ZPICs’ ability to make use of available data and apply innovative analytical methodologies is
critical to their success as benefit integrity contractors.

Table B-4 shows the extent to which ZPICs used external sources and proactive methods to
generate investigations during their first year of operation. Table B-5 shows the extent to
which ZPICs used external sources and proactive methods to generate cases during their first
year of operation. Table B-6 provides examples of proactive data analysis and other proactive
methods used by ZPICs during their first year of operation.

Table B-4: New ZPIC Investigations by Source Used To Initiate the
Investigation

                                  External Source                                         Proactive Method

                                 Number               Percentage                         Number                 Percentage                             Total

 ZPIC A                                312                         77%                             92                       23%                           404


 ZPIC B                             2,305                          96%                           104                          4%                       2,409


    Both ZPICs                      2,617                          93%                           196                          7%                       2,813


 Source: OIG analysis of ZPICs’ Benefit Integrity Workload data, February 1 through October 31, 2009.


Table B-5: New ZPIC Case Referrals by Source Used To Initiate the Case

                                  External Source                                         Proactive Method

                                 Number               Percentage                         Number                 Percentage                             Total

 ZPIC A                                  19                        45%                             23                       55%                             42


 ZPIC B                                    4                       44%                               5                      56%                               9


    Both ZPICs                           23                        45%                             28                       55%                             51


 Source: OIG analysis of ZPICs’ Benefit Integrity workload data, February 1 through October 31, 2009.




        OEI-03-09-00520             Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   26
    A       P P     E    N    D I      X      ~      B


Table B-6: Examples of Proactive Data Analysis and Other Proactive Methods Used
by One or Both ZPICs

 Proactive Data Analysis


        •     Review of billing patterns to identify spikes in providers’ billing patterns or to determine the top billing providers for
              particular specialties


        •     Comparison of billings within a specialty or across the country related to particular procedure codes


        •     Review of data to identify hospices in which a large percentage of Medicare patients were in hospice care for an
              unusually long period


        •     Identification of beneficiaries who received an excessive number of episodes of home health benefits


        •     Identification of Medicare beneficiaries who resided at an unusually long distance from the address of the DME
              supplier


        •     Cross-referencing of the top 10 billers in Part A, Part B, DME, and home health


        •     Verification that beneficiary had a diagnosis related to limb amputation for suppliers billing for prosthetic devices


        •     Identification of Medicare providers who were on State lists of physicians with suspended licenses


        •     Review of services for inpatient stays with the same admission and discharge dates


        •     Identification of claims for ambulance services with no associated services


 Other Proactive Methods


        •     Attendance at meetings with Program Safeguard Contractors, ZPICs, and MACs to discuss new trends and identify
              potentially fraudulent providers or suppliers

        •     Review of news articles to identify any arrested individuals, followed by a determination of whether the identified
              individuals were Medicare providers


        •     Visits with doctors who were beyond a certain age to verify that they were still practicing medicine


 Source: OIG analysis of ZPICs’ survey responses, 2010.




            OEI-03-09-00520         Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   27
    A     P P      E    N    D I      X      ~      B


ZPICs’ Activities Relating to Requests for Information

ZPICs may be asked to provide beneficiary records or provider data to OIG, the Department of
Justice (DOJ), or other entities that identify and investigate fraud. ZPICs are responsible for
responding to these requests for information and data analysis. Timeframes for responding to
requests from OIG and DOJ generally fall into one of two categories: Priority I and
Priority II. Priority I requests are top priority and are required to be fulfilled within 30 days.
Priority II requests are less critical and are required to be fulfilled within 45 days. According
to the PIM, if the requests require that ZPICs access claims history data using Data Extract
Software (DESY), the Priority I 30-day and Priority II 45-day timeframes do not apply.

Methodology for determining timeliness of ZPICs’ response to requests for information. We
utilized information in the ZPICs’ quarterly Requests for Information reports and the
workload narratives to determine the number of OIG and DOJ Priority I and Priority II
requests received and completed. To determine timeliness, we calculated the percentage of
completed requests that exceeded the 30- and 45-day timeframes. We excluded requests from
our calculations if they indicated that they required DESY access, because the timeliness
timeframes do not apply to these requests. The quarterly reports for ZPIC A included a
separate category for requests that required DESY access; quarterly reports for ZPIC B did
not. Therefore, we needed to rely solely on the comments in the workload narratives for ZPIC
B to determine whether the requests required DESY access. However, because this ZPIC’s
narratives may not have identified all DESY requests, our calculations may have included
some requests that required DESY access.

Table B-7 presents the total number of requests for information received by the ZPICs during
their first year of operation by the source of the request. Table B-8 shows the results of our
analysis of the timeliness of ZPICs’ response to OIG and DOJ requests.

Table B-7: Requests for Information Received by ZPICs
                                                 OIG/DOJ                              Other Entities                                               Total

 ZPIC A                                                  441                                              75                                          516

 ZPIC B                                                  429                                                8                                         437

    Both ZPICs                                           870                                              83                                          953

 Source: OIG analysis of ZPICs’ Requests for Information workload data, February 1 through October 31, 2009.




        OEI-03-09-00520            Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   28
    A     P P      E    N    D I       X      ~      B




Table B-8: Timeliness of ZPICs’ Completion of OIG and DOJ Requests
for Information
                                   Percentage of Priority I Requests                               Percentage of Priority II Requests
                                  That Exceeded 30-Day Timeframe                                  That Exceeded 45-Day Timeframe

 ZPIC A                                                                          10%                                                               28%


 ZPIC B                                                                          34%                                                               19%


    Both ZPICs                                                                   23%                                                               23%


 Source: OIG Analysis of ZPICs’ Requests for Information quarterly reports and monthly Requests for Information
 narratives, February 1 through October 31, 2009.




ZPICs’ Overpayments and Other Administrative Actions

ZPICs must take administrative action to prevent and recover inappropriate payments.
Administrative actions include referrals to the AC/MAC for recovery of overpayments, referrals
to CMS for recommended payment suspension, referrals to the AC/MAC for recommended
autodenial or prepayment review edits, referrals to OIG for exclusions, and referrals to CMS or
OIG for imposition of civil monetary penalties.
According to the PIM, ZPICs should initially consider less severe administrative actions, such as
recovery of overpayments and suspension of payments, before making referrals for exclusions or
civil monetary penalties.
Table B-9 provides the number and percentage of ZPICs’ overpayment dollars associated with
investigations and cases that were referred to the AC/MAC for different types of Medicare
services. Table B-10 indicates the percentage of ZPICs’ overpayment dollars referred that were
recovered by the AC/MACs. Table B-11 presents workload data regarding the extent to which
ZPICs took other administrative actions and provides information regarding administrative
actions described by ZPICs in response to our survey.




        OEI-03-09-00520             Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   29
                     A    P P      E    N    D I      X      ~      B



Table B-9: Overpayments Associated With Investigations and Cases That Were Referred to
AC/MACs for Different Service Types
                            Part A                                 Part B                                               DME                                               HH&H

                      Dollars     Percentage               Dollars          Percentage                        Dollars           Percentage                        Dollars          Percentage          Total


ZPIC A1                     $0              0%      $19,505,031                          90%            $1,488,324                            7%               $722,730                   3%     $21,716,085


ZPIC B2           $8,650,607                16%      $6,404,642                          12%            $1,298,623                            2%          $36,201,484                    69%     $52,555,356

    Bothiii
                  $8,650,607                12%     $25,909,673                          35%            $2,786,947                            4%          $36,924,214                    50%     $74,271,441
    ZPICs2

Source: OIG analysis of CMS’s Benefit Integrity workload data, February 1 through October 31, 2009.
1
  In response to our survey question that asked ZPICs to describe any issues with their referrals of overpayments to the AC/MACs, ZPIC A noted an issue with its Part A
hospital overpayment referrals. The ZPIC stated that it suspended referrals for overpayment collection because the MAC would not process the overpayments that were
extrapolated by calendar year. The MAC requested that the overpayments be extrapolated by cost report year, which, in turn, required the ZPIC to reduce the value of the
overpayments to the actual amount identified. Given that the Part A dollars referred by ZPIC A is $0, it is possible that the ZPIC referred the reduced overpayment amounts to
the MAC after our timeframe.
2
    Percentages across the row do not total 100 percent because of rounding.




               Table B-10: Overpayments Associated With Investigations and Cases
               That Were Referred to and Recovered by AC/MACs
                                                       Number of                      Total Dollars                    Total Dollars                      Percentage
                                                         Actions                          Referred                       Recovered                        Recovered


                 ZPIC A                                              35                 $21,716,085                        $5,789,798                                  27%


                 ZPIC B                                              52                 $52,555,356                        $3,713,692                                    7%


                     Both ZPICs                                      87                 $74,271,441                        $9,503,490                                  13%

                 Source: OIG analysis of ZPIC survey responses and CMS’s Benefit Integrity Workload data, February 1 through
                 October 31, 2009.




                         OEI-03-09-00520            Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T           30
    A    P P       E    N     D I       X      ~      B


Table B-11: Administrative Actions Initiated by ZPICs
                                                                                 ZPIC A                            ZPIC B                    Both ZPICs

Payment Suspensions Submitted to CMS1                                                    13                                13                               26

Payment Suspensions Denied by CMS                                                          0                                 1                                1

Providers Referred to OIG for Exclusion2                                                   0                                 0                                0

Providers Referred to CMS or OIG for Civil
                                                                                           0                                 0                                0
Monetary Penalties2

New Autodeny Edits Recommended3                                                            0                                 3                                3

Prepay Claims Denied                                                              40,601                           42,012                            82,613

Dollar Amount of Prepay Claims Denied                                      $20 million                       $12 million                       $32 million

Source: OIG analysis of CMS’s Benefit Integrity workload data, February 1 through October 31, 2009.
1
 ZPIC A noted that it required some training from CMS to ensure it provided the necessary information and handled the
suspensions correctly. ZPIC B noted that it needed to receive authorization from CMS before the payment suspension
could be implemented and that there have been instances in which authorization was not provided timely and the provider
was issued the money. ZPIC B reported that it has worked with CMS to take steps to achieve a faster suspension approval
time.
2
 One ZPIC noted that very few of these actions have been referred for many years.
3
 ZPIC A described a barrier to tracking the savings from autodeny edits. The ZPIC explained that no report is available from
the MACs to enable the ZPIC to identify the savings resulting from autodeny edits. ZPIC B reported that its concern with
autodeny edits is the ability of the MAC to implement the edits because of system limitations.




        OEI-03-09-00520             Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   31
      A P PEN D                      x        c

        Agency Comments



("'w.~ 	   DEPARTMENT OF HEALTH & HUMAN SERVICES
\,~                                                                                Administrator
                                                                                   Washlnglon. DC 20201




        DATE:
                       SEP 3 0 2011

        TO: 	         Daniel R. Levinson 

                      Inspector Oeneral 

                                                   /S/
        FROM: 	       Donald M. Berwick, M.D. 

                      Administrator 


        SUBJECT: 	 Office of Inspector Oeneral (010) Draft Report: "Zone Program Integrity
                      Contractors' Data Issues Hinder Effective Oversight" (OEI-03-09-00520)


        The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
        comment on the Office ofIn.'1pector General (010) draft report entitled, "Zone Program Integrity
        Contractors' Data Issues Hinder Effective Oversight." The purpose of this report was to assess
        CMS' oversight of the Zone Program Integrity Contractors (ZPIC), understand the extent to
        which ZPICs perfonned program integrity activities, detennine the extent to which CMS uses
        program integrity workload statistics in ZPIC performance evaluations, and to identify any
        barriers encountered by ZPICs in perfonning their Medicare program integrity activities.

        In 2008, CMS embarked on a neW program integrity strategy by replacing Program Safeguard
        Contractors (PSCs) with ZP[Cs, which will perform Parts A and B program integrity work in
        seven newly established geographical zones. This new strategy will result in new jurisdictions
        with responsibility for all four claim types: Part A, Part B, durable medical equipment (DME),
        and home health and hospice (HH&H). As of August 2011, CMS has awarded six of the seven
        ZPIC contracts. However, the most recent award is currently under protest; therefore, only five
        of the seven ZPTCs are fully operational at this time.

        The OIG's report was limited to the first two ZPIC awards, Zones 4 and 7, because (hey were the
        only ZPICs thai had completed a full contract year at the time of the OIG's report. CMS concurs
        with some of {he findings that OrG identified in this report and has taken measures to address
        these issues. These include having the CMS Analysis, Reporting, and Tracking System (CMS
        ARTS) contractor fix the errors in the formulas for the total number of new investigations
        originating from reactive sources and the total number of cases referred originating from reactive
        sources.

         The 010 also indicated that CMS' performance evaluations ofZPICs contained few workload
         statistics. CMS has determined that workload statistics are not the most accurate measure of
         performance evaluations, because the contractors do not have control over the workload assigned
         to them. Instead, CMS uses many other deliverables in the CMS ARTS, such as the monthly




   OEI·03·09·00520        ZONE PROGRAM INTEGRITY CONTRACTORS' DATA ISSUES HINDER EFFECTIVE OVERSIGHT         32
A   P P     E   N     D I      X      ~      C




    OEI-03-09-00520         Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   33
A     P P    E   N    D I    X      ~      C




    OEI-03-09-00520     Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   34
A   P P     E   N     D I      X      ~      C




    OEI-03-09-00520         Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   35
A   P P
       A EC NK DN I OX W~ LC E D G M E N T S




                      This report was prepared under the direction of Robert A. Vito, Regional
                      Inspector General for Evaluation and Inspections in the Philadelphia
                      regional office, and Linda M. Ragone, Deputy Regional Inspector
                      General.
                      Tara Bernabe served as the team leader for this study. Other principal
                      Office of Evaluation and Inspections staff from the Philadelphia
                      regional office who contributed to the report include Maria Johnson,
                      Ashley Robin, and Sunil Patel; central office staff who contributed
                      include Scott Manley.




    OEI-03-09-00520   Z O N E P R O G R A M I N T E G R I T Y C O N T R A C T O R S ’ D ATA I S S U E S H I N D E R E F F E C T I V E O V E R S I G H T   36
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
